No.

In the

Supreme Court of the United States
TIMOTHY BARNES,

Petitioner,

v.
CHASE HOME FINANCE, LLC;
CHASE BANK USA, N.A., a subsidiary of
JP Morgan Chase & Co.; IBM LENDER
BUSINESS PROCESS SERVICES, INC.; and
FEDERAL NATIONAL MORTGAGE
ASSOCIATION,

Respondents.

-----------------------------------------ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

------------------------------------------

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
------------------------------------------

Jon D. Pels
Counsel of Record
Maria Leonard Olsen
THE PELS LAW FIRM
4845 Rugby Avenue, Third Floor
Bethesda, Maryland 20814
(301) 986-5570
jpels@pelslaw.com
Counsel for Petitioner

GibsonMoore Appellate Services, LLC
206 East Cary Street ♦ Richmond, VA 23219
804-249-7770 ♦ www.gibsonmoore.net

ia
TABLE OF CONTENTS
Appendix
Page:
Opinion
U.S. Court of Appeals for the Ninth Circuit
entered August 14, 2019 ............................... 1a
Opinion
U.S. District Court for the District of Oregon
entered June 29, 2018 ................................. 16a
Opinion
U.S. District Court for the District of Oregon
Magistrate Judge’s Findings and Recommendations
entered April 12, 2018 ................................. 19a
Opinion
U.S. Court of Appeals for the Ninth Circuit
entered August 10, 2017 ............................. 73a
Order
U.S. Court of Appeals for the Ninth Circuit
Denying Petition for Rehearing
entered October 28, 2019 ............................ 78a
15 U.S.C. § 1601, et seq.......................................... 79a
12 C.F.R. § 1026, et seq. ......................................... 81a
12 C.F.R. § 1026 Supp. I
Official Interpretations...................................... 84a
Or. Rev. Stat. § 107.105 ......................................... 84a

1a
[FILED AUGUST 14, 2019]
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-35616
D.C. No. 3:11-cv-00142-PK
OPINION
TIMOTHY BARNES,

Plaintiff-Appellant,
v.

CHASE HOME FINANCE, LLC, a Delaware
corporation; CHASE BANK USA, N.A., a subsidiary
of JP Morgan Chase & Co., a Delaware corporation;
IBM LENDER BUSINESS PROCESS SERVICES,
INC.,
a
Delaware
corporation;
FEDERAL
NATIONAL MORTGAGE ASSOCIATION,
Defendants-Appellees.
Appeal from the United States District Court
For the District of Oregon
Michael W. Mosman, District Judge, Presiding
Argued and Submitted July 9, 2019
Seattle, Washington
Filed August 14, 2019

2a
Before: Paul J. Watford and Eric D. Miller, Circuit
Judges, and Barbara Jacobs Rothstein,* District
Judge.
Opinion by Judge Rothstein
__________________________________
SUMMARY**
__________________________________
Truth in Lending Act
The panel affirmed the district court’s grant of
summary judgment in favor of the defendants in an
action brought under the Truth in Lending Act.
The panel held that, on remand following a prior
appeal, the district court properly considered
defendants’ new argument that plaintiff had no right
of rescission under TILA because his loan was a
residential mortgage transaction under 15 U.S.C. §
1635(e)(1). The panel held that the argument was not
waived because a defendant need not raise every
possible argument in a motion for summary judgment
and may make a different argument on remand if a
grant of summary judgment in its favor is reversed on
appeal. In addition, neither the law of the case nor
the mandate in the prior appeal barred the district
court from addressing defendants’ new argument.
The panel affirmed the district court’s conclusion
that plaintiff’s loan was a residential mortgage
The Honorable Barbara Jacobs Rothstein, United States
District Judge for the Western District of Washington, sitting
by designation.
*

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.
**

3a
transaction to which the right of rescission under
TILA does not apply. A residential mortgage
transaction is defined as “a transaction in which a
mortgage . . . is created or retained against the
consumer’s dwelling to finance the acquisition or
initial construction of such dwelling.” Plaintiff
previously had quitclaimed his interest in the
property at issue to his then-wife, and he obtained the
mortgage loan and took title to the property in
compliance with a divorce judgment. The panel held
that the statutory definition of a residential mortgage
transaction includes both an initial acquisition and a
reacquisition of a property. Assuming without
deciding that plaintiff gained an interest in the
property by operation of state law upon the filing of
the marital dissolution petition, the panel held that he
did not “acquire” this interest for purposes of TILA’s
residential mortgage transaction provision. The panel
rejected plaintiff’s arguments that (1) the language
used in the loan documents showed that he already
owned an interest in the property before he took out
the loan, and (2) he took out the mortgage to comply
with the divorce judgment, and not to finance his
acquisition of the property.
__________________________________
COUNSEL
Elizabeth S. Weinstein (argued), Yarmuth Wilsdon
PLLC, Seattle Washington, for Plaintiff-Appellant
Kevin Hisashi Kono (argued) and Kaley L. Fendall,
Davis Wright Tremaine LLP, Portland, Oregon:
Frederick B. Burnside, Davis Wright Tremaine LLP,
Seattle, Washington; for Defendants-Appellees Chase
Home Finance LLC and Chase Bank USA N.A.

4a
Lance E. Olsen (argued), McCarthy Holthus LLP,
Seattle, Washington; John M. Thomas, McCarthy
Holthus LLP, Portland, Oregon, for DefendantsAppellees IBM Lender Business Process Services
Inc., and Federal National Mortgage Association.
__________________________________
OPINION
ROTHSTEIN, Senior District Judge:
Timothy Barnes appeals the district court’s grant
of summary judgment in favor of defendants in his
action under the Truth in Lending Act (“TILA”),
seeking rescission of a mortgage as well as damages
and declaratory and injunctive relief. In a prior
appeal, we held that Barnes gave proper, timely
notice of rescission under TILA, and we vacated the
district court’s judgment and remanded for further
proceedings. Barnes v. Chase Home Fin., LLC, 701 F.
App’x 673, 674–75 (9th Cir. 2017) (unpublished
memorandum disposition). On remand, the district
court granted summary judgment on a different
ground, concluding that Barnes had no right of
rescission under TILA because his loan was a
residential mortgage transaction under 15 U.S.C. §
1635(e)(1).
We conclude that the district court properly
considered defendants’ new argument on remand
and properly granted summary judgment because
Barnes obtained the mortgage in order to reacquire a
residential property in which his prior ownership
interest had been extinguished; thus, the right of
rescission did not apply. We therefore affirm the
district court’s judgment.

5a
FACTUAL BACKGROUND
Timothy Barnes and his now ex-wife obtained
title to the property in question in 1990. In 1997, the
wife transferred title to the property to Barnes by
quitclaim deed. In 2003, Barnes quitclaimed the
property back to his wife. She then encumbered the
property with a series of deeds of trust, listing her as
the sole borrower.
The couple divorced in 2007. The divorce
judgment, dated September 12, 2007, provided for a
money judgment of $100,000.00 to be entered in
favor of the wife and against Barnes. The divorce
judgment further provided as follows:
The Family Residence Husband is awarded the
real property located at . . . Greenwood Road . . .
free of all right, title and interest of Wife thereto,
and subject to the encumbrance of record owing
thereon which Husband shall pay, indemnify and
hold Wife harmless therefrom. Husband shall
immediately refinance the mortgage owing on said
property in order to remove Wife’s name from said
financial obligation. Wife shall cooperate in
signing any documents necessary in order to
accomplish this purpose. Title to said property
shall not transfer until the money judgment
provided in paragraph 5.11 is paid in full and Wife
shall be required to submit an executed Bargain
and Sale Deed to any escrow which Husband
establishes for the payment of said judgment.
On November 15, 2007, Barnes obtained the loan
at issue, signing a balloon note with defendant
Chase Bank USA, N.A. (“CBUSA”) for $378,250.00.
On the same date, he executed a deed of trust
securing the note on the property. According to a

6a
statement of First American Title Insurance
Company of Oregon, Barnes used $254,438.92 of the
loan funds to pay off his ex-wife’s outstanding loan
balance, and he paid $100,000.00 to her to satisfy
the money judgment provided for in the divorce
judgment. The ex-wife conveyed title to the property
to Barnes via a Statutory Special Warranty Deed,
signed on November 16 and recorded on November
20, 2007. Barnes married his current spouse in
September 2008, and they reside on the property.
PROCEDURAL HISTORY
Barnes, appearing pro se, filed suit against Chase
Home Finance, LLC (“CHF”); CBUSA; IBM Lender
Business Process Services, Inc. (“LBPS”); and Federal
National Mortgage Association (“Fannie Mae”),
seeking rescission of the November 2007 mortgage
loan and other relief. The district court dismissed
Barnes’s claim for rescission as time-barred, and it
granted summary judgment on his claims for
declaratory and injunctive relief and damages. We
vacated the district court’s judgment and remanded,
holding that Barnes’s letter to CHF, a loan servicer,
gave proper, timely notice of rescission to his creditor,
CBUSA, within three years of the loan transaction
under 15 U.S.C. § 1635(a) and (f).
On remand, the district court granted summary
judgment in favor of defendants, holding that Barnes
had no statutory right under TILA to rescind the
2007 mortgage, and no statutory right of disclosure
of any such right of rescission, because the loan was
secured by Barnes’s residence and thus was a
residential mortgage transaction. The district court
concluded that, although Barnes had a partial
interest in the property from 1990 to 1997 and was

7a
the sole owner from 1997 to 2003, his interest in the
property was fully extinguished in 2003 when he
conveyed the entirety of his interest to his wife via
quitclaim deed. The district court further found that,
“pursuant to his obligations under the 2007
Dissolution of Marriage, Barnes entered into the
2007 Balloon Note loan transaction specifically in
order to acquire ownership interest in the property
(for the second time).” “The 2007 Balloon Note was
secured by the property . . . , and the property was
thereafter Barnes’ place of residence . . . . The
necessary implication is that the 2007 Balloon Note
was a residential mortgage transaction as to which
TILA provides no statutory right of rescission.” The
district court held that, under the plain language of
15 § 1602(x), in which the word “construction,” but
not the word “acquisition,” is modified by the term
“initial,” Barnes’s prior ownership interest in the
property did not preclude characterization of the
2007 loan as a residential mortgage transaction. The
district court concluded that the Official Staff
Interpretations to Regulation Z, 12 C.F.R. Pt. 226,
Supp. I, Subpt. A § 226.2(a)(24)–(5)(i) & (ii), was not
to the contrary because it applied only to a situation
in which a borrower increases an existing ownership
interest using loan proceeds. See 12 C.F.R. Pt. 226,
Supp. I, Subpt. A § 226.2(a)(24)–(5)(i) (the term
residential mortgage transaction “does not include a
transaction involving a consumer’s principal
dwelling if the consumer had previously purchased
and acquired some interest to the dwelling, even
though the consumer had not acquired full legal
title”). The district court rejected Barnes’s
arguments that, pursuant to the September 2007
divorce judgment, he enjoyed some degree of interest

8a
in the property prior to entering into the 2007
Balloon Note; that the 2007 Balloon Note was not a
residential mortgage transaction because the loan
documents refer to the transaction as a refinancing
and refer to Barnes as the titleholder of the property;
and that the Chase defendants were estopped from
denying that he enjoyed a statutory right of
rescission because they provided him with notice of
his right to rescind.
DISCUSSION
Standard of Review
“We review the grant of summary judgment de
novo, viewing the evidence and drawing all
reasonable inferences in the light most favorable to
the non-moving party.” Edwards v. Wells Fargo &
Co., 606 F.3d 555, 557 (9th Cir. 2010). “Summary
judgment is proper if the pleadings and other
evidence before the court ‘show that there is no
genuine issue as to any material fact and that the
movant is entitled to judgment as a matter of law.’”
Id. (quoting Fed. R. Civ. P. 56).
Scope of District Court’s Authority on Remand
Barnes argues that the issue whether his loan
was a residential mortgage transaction, to which the
right of rescission did not apply, was not properly
before the district court on remand because
defendants waived the issue by failing to raise it
until after the prior appeal, and because defendants’
argument was barred by law of the case and this
court’s mandate in the prior appeal. We disagree.
The issue was not waived as a defendant need not
raise every possible argument in a motion for
summary judgment and may make a different

9a
argument on remand if a grant of summary
judgment in its favor is reversed on appeal. See Fed.
R. Civ. P. 56(a) (providing that a party may move for
partial summary judgment); Biel v. St. James Sch.,
911 F.3d 603, 611 n.6 (9th Cir. 2019) (reversing
grant of summary judgment to defendant on the
basis of the ministerial exception to employment
laws, including the Americans with Disabilities Act,
and noting that, on remand, defendant could make a
different argument).
Further, neither law of the case nor the mandate
on appeal barred the district court from addressing
defendants’
residential
mortgage
transaction
argument. See Rocky Mtn. Farmers Union v. Corey,
913 F.3d 940, 951 (9th Cir. 2019) (law of the case
doctrine); Edgerly v. City & Cty. of S.F., 713 F.3d
976, 985 (9th Cir. 2013) (rule of mandate). In
Barnes’s prior appeal, we held that Barnes’s letter to
CHF provided sufficient notice to CBUSA that he
was exercising his right to rescind, and the district
court therefore erred in dismissing Barnes’s claims
for rescission and failure to effect rescission on the
ground of improper notice. Barnes, 701 F. App’x at
674–75. In so holding, we did not rule that Barnes
had an otherwise valid right to rescind. As the
district court concluded on remand, it was not law of
the case, under our decision in the prior appeal, that
the remedy of rescission necessarily remained
available to Barnes as a matter of law, and we
“neither expressly nor impliedly found that Barnes
had a right of rescission to exercise in the first
instance.” Rather, both the district court’s prior
analysis and this court’s analysis “were premised on
the assumption that Barnes enjoyed such a right of
rescission, and it remain[ed] an open legal question

10a
whether that assumption was accurate under the
applicable circumstances.”
Grant of Summary Judgment
The parties agree TILA provides that the right of
rescission does not apply to a “residential mortgage
transaction.” 15 U.S.C. § 1635(e)(1); 12 C.F.R. §
226.23(f)(1); see Merritt v. Countrywide Fin. Corp.,
759 F.3d 1023, 1029 n.7 (9th Cir. 2014); see also
Dunn v. Bank of Am., N.A., 844 F.3d 1002, 1005 (8th
Cir. 2017) (applying § 1635(e)(1)). What the parties
dispute is whether Barnes’s mortgage transaction is
a residential mortgage as to which there is no right
of rescission, or whether Barnes had a prior interest
in the property that made the transaction a
refinance as to which a right of rescission was
available. A “residential mortgage transaction” is
defined as “a transaction in which a mortgage, deed
of trust, purchase money security interest arising
under an installment sales contract, or equivalent
consensual security interest is created or retained
against the consumer’s dwelling to finance the
acquisition or initial construction of such dwelling.”
15 U.S.C. § 1602(x).
A. The District Court Properly Construed
the Statutory and Regulatory Text to
Include in the Definition of a Residential
Mortgage Transaction a Transaction in
Which
a
Consumer
Reacquires
a
Property.
The district court did not improperly construe
TILA’s right of rescission against Barnes in ruling
that § 1602(x)’s definition of a residential mortgage
transaction includes both an initial acquisition and a
reacquisition of a property. As the district court

11a
concluded, the statutory and regulatory text is
unambiguous. See Comcast of Sacramento I, LLC v.
Sacramento Metro. Cable Television Comm’n, 923
F.3d 1163, 1171 (9th Cir. 2019) (inquiry into
meaning of unambiguous statutory text is limited to
the text itself). In § 1602(x), the word “initial”
modifies only the word “construction.” 15 U.S.C. §
1602(x) (defining residential mortgage transaction as
transaction in which mortgage is created “to finance
the acquisition or initial construction of such
dwelling”). Thus, under the plain language of the
statute, a residential mortgage transaction is one in
which the mortgage is created to finance either (1)
the initial construction of the dwelling or (2) any
acquisition or reacquisition of the dwelling. See In re
Bestrom, 114 F.3d 741, 744–46 (8th Cir. 1997)
(holding that TILA right of rescission did not apply
where
purchaser
reacquired
property
after
foreclosure sale).
The district court also correctly concluded that
the language of the Official Staff Interpretations to
Regulation Z—providing that a residential mortgage
transaction does not include a transaction where a
borrower had previously acquired an interest in a
property—unambiguously refers to a situation in
which the borrower increases an existing ownership
interest using loan proceeds, rather than a situation
in which the borrower reacquires a property in
which he had given up all ownership interest. 12
C.F.R. Pt. 226, Supp. I, Subpt. A § 226.2(a)(24)–(5)(i)
(the term residential mortgage transaction “does not
include a transaction involving a consumer’s
principal dwelling if the consumer had previously
purchased and acquired some interest to the
dwelling, even though the consumer had not

12a
acquired full legal title”). As the district court
reasoned, the examples provided in the Official Staff
Interpretation support this interpretation. See 12
C.F.R. Pt. 226, Supp. I, Subpt. A § 226.2(a)(24)–
(5)(ii) (there is not a residential mortgage
transaction when the borrower finances a balloon
payment due under a land sale contract or when an
extension of credit is made to a joint owner to buy
out another joint owner’s interest).
Accordingly, the Official Staff Interpretation does
not contradict the conclusion that a borrower who
obtains a mortgage to reacquire a residential
property in which he has retained no interest is
conducting a residential mortgage transaction to
which the TILA right of rescission does not apply.
The “refinance” ordered by Barnes’s divorce
judgment was not the kind of mortgage addressed by
the regulation—a loan taken out by someone who
already owns the property—rather, it was a
“refinance” to pay off Barnes’s ex-wife’s outstanding
mortgage so as to make it possible for him to acquire
the property in his own right.
B. The District Court Correctly Concluded
That Barnes Reacquired the Property in
2007 Because Barnes Did Not Previously
Purchase and Acquire an Interest in the
Property.
Barnes argues that the 2003 quitclaim deed does
not establish his subsequent lack of any ownership
interest in the property because, once in divorce
court, the property took on communal attributes.
While Oregon is a separate property state in which
“a spouse may hold property solely in his or her own
name,” Nay v. Dep’t of Human Servs., 385 P.3d 1001,

13a
1011 (Or. 2016) (citing Or. Const., Art. XV, § 5),
Barnes contends that in an Oregon marital
dissolution proceeding, marital assets are defined as
property obtained during the marriage by either
spouse, and “there is a rebuttable presumption that
both parties contributed equally to the acquisition of
those assets,” id. at 1012 (citing Or. Rev. Stat. §
107.105(1)(f)). Oregon law further provides as
follows: “Subsequent to the filing of a petition for . . .
dissolution of marriage . . . , the rights of the parties
in the marital assets shall be considered a species of
co- ownership, and a transfer of marital assets under
a judgment of dissolution of marriage . . . shall be
considered a partitioning of jointly owned property.”
Or. Rev. Stat. § 107.105(1)(f)(E); see Matter of
Marriage of Johnson, 380 P.3d 983, 993 (Or. Ct. App.
2016) (spouses ought to be entitled to approve or
disapprove disposition of marital assets held as “a
species of co-ownership”). Thus, according to Barnes,
upon the filing of the petition for the dissolution of
the marriage of Barnes and his ex-wife, at some time
prior to September 2007, Barnes acquired a “species
of co- ownership” in the property, a marital asset
that he had quitclaimed to his then-wife in 2003.
Assuming without deciding that this is correct,
and Barnes gained an interest in the property by
operation of Oregon law upon the filing of the
marital dissolution petition, we nevertheless
conclude that Barnes did not “acquire” this interest
for purposes of TILA’s “residential mortgage
transaction” provision. See 15 U.S.C. § 1602(x)
(defining residential mortgage transaction as
transaction in which mortgage is created “to finance
the acquisition or initial construction of such
dwelling”). The Official Staff Interpretations

14a
recognize that some types of prior interests may
change the substance of an acquisition to something
more akin to a refinance, but that exception applies
only where the prior interest was “previously
purchased and acquired” before the transaction at
issue. 12 C.F.R. Pt. 226, Supp. I, Subpt. A
226.2(a)924)–(5)(i) (emphasis added). Barnes does
not dispute that he did not “purchase” any interest
that might have arisen by operation of Oregon
dissolution proceedings.
Barnes also argues that the language used in the
loan documents shows that he already owned an
interest in the property before he took out the loan
in November 2007. He cites the deed of trust, in
which he convenanted that he was “lawfully seised”
of the property. He also cites the loan application
and closing instructions, in which CBUSA
characterized the loan as a “refinance” and referred
to Barnes as “Titleholder.” As the district court
concluded, however, the lender’s characterization of
the transaction is not determinative; the loan was
not a refinance where the borrower changed from the
ex-wife to Barnes, and Barnes did not acquire title
until November 16, 2007, the day after he signed the
loan. See Slenk v. Transworld Sys., Inc., 236 F.3d
1072, 1075 (9th Cir. 2001) (looking to substance over
form in classifying a loan for purposes of the Fair
Debt Collection Practices Act). Further, as
defendants argue, their provision of a notice of a
three-day right of rescission did not create the threeyear right of rescission on which Barnes seeks to
rely. See 12 C.F.R. Pt. 226, Supp. I, Subpt. A § 226.3(3)(a)(1) (“the fact that disclosures are made . . . is
not controlling on the question of whether the
transaction was exempt”).

15a
C. The District Court Correctly Concluded
That Barnes Took out the Mortgage to
Finance his Reacquisition of the
Property.
Barnes argues that the purpose of the loan was
not to finance his acquisition of the property under §
1602(x), but rather to comply with the divorce
judgment, which ordered him to pay $100,000.00 to
his ex-wife to pay off her outstanding loan balance of
$254,438.92. But most importantly, by means of
these same payments he also obtained title to the
property. Our analysis turns on the objective nature
of the transaction, not Barnes’s subjective intent in
entering into it. As defendants point out, the divorce
judgment awarded Barnes the property conditioned
on his payment of the property division judgment
and his ex-wife’s outstanding loan balance, and he
obtained the loan in order to carry out those
conditions. See 12 C.F.R. Pt. 226, Supp. I, Subpt. A §
226.2(a)(24)–(6)
(addressing
multiple-purpose
transactions).
CONCLUSION
We affirm the district court’s grant of summary
judgement in favor of defendants.
AFFIRMED.

16a
[FILED JUNE 29, 2018]
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
PORTLAND DIVISION
No. 3:1l-cv-00142-PK
OPINION AND ORDER
TIMOTHY BARNES,
Plaintiff,
v.
CHASE HOME FINANCE, LLC, CHASE BANK
USA, N.A., IBM LENDER BUSINESS PROCESS
SERVICES, INC., JOHN AND JANE DOES 1-10,
and
FEDERAL
NATIONAL
MORTGAGE
ASSOCIATION,
Defendants.
MOSMAN, J.,
On April 12, 2018, Magistrate Judge Paul Papak
issued his Findings and Recommendation (F&R)
[218], recommending that Mr. Barnes's Motion for
Summary Judgment [175] be denied; that the Chase
Defendants' Motion for Summary Judgment [193]
and Fannie Mae and LBPS's Motion for Summary

17a
Judgment [199] should be granted; and that
judgment should be entered. Plaintiff objected [223].
The Chase Defendants responded [224], and Fannie
Mae and LBPS joined that response [225].
DISCUSSION
The
magistrate
judge
makes
only
recommendations to the court, to which any party may
file written objections. The court is not bound by the
recommendations of the magistrate judge, but retains
responsibility for making the final determination. The
court is generally required to make a de novo
determination regarding those portions of the report
or specified findings or recommendation as to which
an objection is made. 28 U.S.C. § 636(b)(l)(C).
However, the court is not required to review, de novo
or under any other standard, the factual or legal
conclusions of the magistrate judge as to those
portions of the F&R to which no objections are
addressed. See Thomas v. Arn, 474 U.S. 140, 149
(1985); United States v. Reyna-Tapia, 328 F.3d 1114,
1121 (9th Cir. 2003). While the level of scrutiny under
which I am required to review the F&R depends on
whether or not objections have been filed, in either
case, I am free to accept, reject, or modify any part of
the F&R. 28 U.S.C. § 636(b)(l)(C).

18a
Upon review, I agree with Judge Papak's
recommendation and I ADOPT the F&R [218] in
full. Mr. Barnes's Motion for Summary Judgment
[175] is DENIED, and the Chase Defendants' Motion
for Summary Judgment [193] and Fannie Mae's and
LBPS's Motion for Summary Judgment [199] are
GRANTED.
IT IS SO ORDERED.
DATED this 29 day of June, 2018.

19a
[FILED APRIL 12, 2018]
IN THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF OREGON
CV 11-142-PK
FINDINGS AND RECOMMENDATION
TIMOTHY BARNES,
Plaintiff,
v.
CHASE HOME FINANCE, LLC, CHASE
BANK USA, N.A., IBM LENDER BUSINESS
PROCESS SERVICES, INC., JOHN AND
JANE
DOES
1-10,
and
FEDERAL
NATIONAL MORTGAGE ASSOCIATION,
Defendants.
PAPAK, Magistrate Judge:
Plaintiff pro se Timothy Barnes filed this
action against defendants Chase Home
Finance, LLC (“CHF” or "JPMCB" 1 ), Chase
Following a corporate restructuring, CHF no longer
exists as a discrete corporate entity, and the successor
entity to CHF is JP Morgan Chase Bank, N.A..

1

20a
Bank USA, N.A. ("CBUSA" and, collectively
with CHF, the “Chase defendants"), IBM
Lender Business Process Services, Inc.
("LBPS”), and ten fictitiously named “Doe"
defendants on February 4, 2011. By and
through his complaint as originally filed,
Barnes alleged these defendants' liability
under the Truth in Lending Act ("TILA") and
its implementing Regulation Z in connection
with their responses (or failures to respond)
to Barnes' notice of his intention to exercise
his asserted right of rescission as to a
mortgage loan he took out on his home more
than two years but fewer than three years
following the date the mortgage transaction
closed. On June 10, 2011, I construed Barnes'
complaint as alleging claims for (i) rescission
of the mortgage loan, (ii) declaratory
judgment that Barnes' notice of intent to
rescind was valid when issued and that
defendants have no valid security interest in
the subject property, (iii) statutory and
actual
damages
in
connection
with
defendants' failure to provide adequate notice
of his right to rescind at or around the time
the loan documents were signed, (iv)

21a
statutory and actual damages in connection
with the Chase defendants’ failure to effect
rescission of the mortgage loan following
their receipt of his notice of intent to exercise
the rescission right, and (v) injunctive relief
to enjoin the defendants from initiating or
prosecuting
non-judicial
foreclosure
proceedings on the property, from recording
any deeds or mortgages regarding the
property, or from taking any steps to deprive
him of his ownership fights in the property.
Also on June 10, 2011, on motions to
dismiss filed by the Chase defendants and
LBPS, I recommended that the court dismiss
Barnes' rescission claim for lack of subjectmatter jurisdiction and dismiss Barnes'
remaining claims for failure to state a claim.
On October' 18, 2011, disagreeing with my
analysis of the jurisprudence interpreting the
provisions of Regulation Z, Judge Brown
adopted my recommendations of June 10,
2011, only insofar as I recommended that the
court dismiss Barnes' construed claim for
statutory and actual damages arising out of
defendants' purported failure to provide

22a
adequate notice of Barnes' right to rescind at
or around the time the loan documents were
signed, and otherwise denied the defendants'
motions to dismiss with instructions that I
consider certain issues left unresolved in the
my
findings
and
recommendation,
specifically the Chase defendants' arguments
for dismissal of Barnes' rescission claim and
LBPS' arguments for dismissal to the extent
premised on the theory that LBPS was not
an assignee of Barnes' loan and therefore not
subject to TILA liability.
On November 3, 2011, the Chase
defendants voluntarily withdrew their
motion to dismiss. Effective November 16,
2011, Barnes amended his complaint, adding
the Federal National Mortgage Association
("Fannie Mae") as an additional defendant
and removing his prayer for statutory
damages in connection with the defendants'
purported failure to provide adequate notice
of Barnes' right to rescind at or around the
time the loan documents were signed. On
December 8, 2011, I recommended that
LBPS' motion to dismiss be denied to the

23a
extent premised on the grounds not
addressed in my recommendations of June
10, 2011. Effective February 10, 2012, Barnes
amended his complaint for the second time,
adding documents tending to support some of
his allegations as exhibits thereto. On March
6, 2012, Judge Brown adopted my
recommendation that LBPS' then-pending
motion to dismiss be denied.
On March 19, 2012, I recommended for
the second time that Barnes' claim for
rescission be dismissed, this time on the
basis of intervening Ninth Circuit case law
establishing that that claim was time-barred.
On June 20, 2012, Judge Brown adopted my
recommendation, and dismissed Barnes'
claim for rescission with prejudice.
On April 10, 2013, I recommended that the
court grant summary judgment in defendants'
favor as to Barnes' remaining claims (that is, as
to all of Barnes' pied and constructive claims
other than his claim for statutory and actual
damages arising out of defendants' failure to
provide adequate notice of his right to rescind,
which was dismissed effective October 18, 2011,

24a
and his claim for rescission, which was
dismissed with prejudice effective June 20,
2012).
Judge
Brown
adopted
that
recommendation on July 8, 2013. On August 6,
2013, Barnes appealed this court’s judgment,
including within the scope of his appeal this
court's orders effecting dismissal of certain of
his claims prior to entry of summary judgment.
The Ninth Circuit's mandate issued in
connection with Barnes' appeal on September 5,
2017. The circuit court vacated this court's
"grant of summary judgment on Barnes's
claims for rescission and failure to effect
rescission" and remanded Barnes' action for
further proceedings.
Now before the court are Barnes' motion
(#175) for summary judgment, the Chase
defendants' motion (#193) for summary
judgment and Fannie Mae's and LBPS'
motion (#199) for summary judgment (by and
through which Fannie Mae and LBPS join in
the Chase defendants' motion). I have
considered the motions and all of the
pleadings and papers on file. For the reasons
set forth below, Barnes’ motion (#175) for

25a
summary judgment should be denied, and
the Chase defendants• motion (#193) and
Fannie Mae's and LBPS' motion (#199) for
summary judgment should both be granted.
LEGAL STANDARD
Summary judgment is appropriate "if the
pleadings,
depositions,
answers
to
interrogatories, and admissions on file, together
with the affidavits, if any, show that there is no
genuine issue as to any material fact and that
the moving party is entitled to a judgment as a
matter of law.” Fed. R. Civ. P. 56(c). Summary
judgment is not proper if material factual issues
exist for trial. See, e.g., Celotex Corp. v. Catrett,
477 U.S. 318, 322 (1986); Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986); Warren v.
City of Carlsbad, 58 F.3d 439, 441 (9th Cir.
1995), cert. denied, 116 S.Ct. 1261 (1996). The
substantive law governing a claim or defense
determines whether a fact is material. See
Moreland v. Las Vegas Metro. Police Dep't, 159
F.3d 365, 369 (9th Cir. 1998).
In evaluating a motion for summary
judgment, the district courts of the United

26a
States must draw all reasonable inferences in
favor of the nonmoving party, and may neither
make credibility determinations nor perform
any weighing of the evidence. See, e.g., Lytle v.
Household Mfg., Inc., 494 U.S. 545, 554-55
(1990); Reeves v. Sanderson Plumbing Products,
Inc., 530 U.S. 133, 150 (2000). On cross-motions
for summary judgment, the court must consider
each motion separately to determine whether
either party has met its burden with the facts
construed in the light most favorable to the
other. See Fed. R. Civ. P. 56; see also, e.g., Fair
Hous. Council v. Riverside Two, 249 F.3d 1132,
1136 (9th Cir. 2001). A court may not grant
summary judgment where the court finds
unresolved issues of material fact, even where
the parties allege the absence of any material
disputed facts. See id.
FACTUAL BACKGROUND
I. The Parties
Plaintiff Timothy Barnes is the owner and
resident of a residential property located at
590 South Greenwood Road in Independence,
Oregon (the "property").

27a
Defendant CHF is a Delaware corporation
with its principal place of business in New
Jersey. Defendant CBUSA was at material
times a Delaware corporation with its
principal place of business in Delaware, and
its successor in interest is JP Morgan Chase
Bank, N.A.. CBUSA was the “lender” on the
note at issue in this action. CHF appears to
have been the original "servicer" of that note
on CBUSA's behalf The parties all agree that
CBUSA was the entity to whom Barnes was
required to send his notice of intent to
rescind in order to effect his right of
rescission during the period when that right
was inforce and exercisable.
Defendant
LBPS
is
a
Delaware
corporation with its principal place of
business in North Carolina. It appears that
LBPS became the servicer of the note at issue
in this action on or around October 1, 2010.
Defendant Fannie Mae became the
"creditor" of the note at issue in this action
effective November 16, 2010, by way of
assignment from CBUSA.

28a
II. History of the Parties' Dispute
In 1990, Barnes and his wife Kara Barnes
("Kara"), from whom he is now divorced,
entered a contract to purchase the property
in Independence, Oregon, that is at the
center of the patties' dispute. See Declaration
(#194) of Kaley L. Fendall (''Fendall Decl."),
Exh. A ("1990 Real Property Sale Contract").
In 1993, the sellers conveyed the property to
Barnes and Kara via statutory special
warranty deed. See Fendall Decl., Exh. B
(''1993 Statutory Special Warranty Deed"). In
1997, Kara conveyed her interest in the
property to Baines via quitclaim deed. See
Fendall Decl., Exh. C (“1997 Quitclaim
Deed"). In 2003, Barnes conveyed his entire
interest in the property back to Kara via
another quitclaim deed. See Fendall Decl.,
Exh. D ("2003 Quitclaim Deed").
Seven days after Baines' interest in the
property was extinguished by quitclaim deed,
leaving Kara as the sole owner of the
property, Kara encumbered the property
with a deed of trust in favor of Merit
Financial, Inc., identifying her as the sole

29a
mortgagor and securing a note in the amount
of $250,781. Fendall Decl., Exh. E ("Merit
Deed of Trust"). Subsequently, in 2005, Kara
encumbered the property with a second deed
of trust, this one in favor of M&T Mortgage
Corporation and securing a note in the
amount of $251,000, again identifying Kara
as the sole mortgagor. Fendall Decl., Exh. F
("M&T Deed of Trust I"). In 2006, Kara
encumbered the property with a third deed of
trust, again in favor of M&T Mortgage
Corporation, again identifying Kara as the
sole mortgagor, and securing a note in the
amount of $255,000. Fendall Decl., Exh. G
("M&T Deed of Trust II").
Barnes later testified under oath that the
property described in the 2003 Quitclaim
Deed - the same property as that described in
the 1990 Real Property Sale Contract, the
1993 Statutory Special Warranty Deed, and
the 1997 Quitclaim Deed, see 1990 Real
Property Sale Contract, 1993 Statutory
Special Warranty Deed, 1997 Quitclaim
Deed, 2003 Quitclaim Deed - is the property
at issue in this action, and that (impliedly by

30a
operation of the 2003 Quitclaim Deed) he
lacked any title in that property at the time
he entered into the loan transaction with
CBUSA that underlies his claims herein. See
Fendall Decl., Exh. J (Deposition of Timothy
Barnes ("Barnes Depo.”)), 35:20 - 36:10.
Barnes and Kara divorced in September
2007. See Fendall Decl., Exh. I ("2007
Dissolution of Marriage"). In connection with
the divorce, Barnes was awarded title to the
property "free of all right, title and interest of
[Kara] thereto." Id., ¶ 5.8. Pursuant to the
divorce decree, Barnes was required to pay all
encumbrances of record on the property and to
indemnify Kara and hold her harmless in
connection with such encumbrances. See id. In
addition, Barnes was required to “immediately
refinance the mortgage owing on said property
in order to remove [Kara]'s name from said
financial obligation." Id. The decree provided
that title in the property would be transferred
from Kara to Barnes after Barnes paid Kara
the amount of $100,000, which amount was
characterized as a “property division
judgment.” See id.; see also id., if ¶ 5.11.

31a
On or around November 15, 2007, Barnes
closed a loan transaction with CBUSA
secured by the property. See Declaration
(#195) of Nina Zakharevych ("Zakharevych
Decl."), Exh. A (collectively with Second
Amended Complaint {#95), Exh. E, "2007
Balloon Note"). The loan transaction was
memorialized by and through the 2007
Balloon Note in the amount of $378,250,
which bears the date November 14, 2007, but
was signed by Barnes as the sole borrower on
November 15, 2007. See id. Also on
November 15, 2007, Barnes executed a deed
of trust identifying the property as security
for the 2007 Balloon Note loan for CBUSA's
benefit. See Zakharevych Decl., Exh. B
(collectively
with
Second
Amended
Complaint (#95), Exh. D, “2007 Deed of
Trust”). At closing, according to Barnes'
allegations, CBUSA's closing agent First
American Title Company of Oregon provided
Barnes with two unsigned copies of a Notice
of Right to Cancel. See Second Amended
Complaint (#95), Exh. G ("Unsigned Notice of
Right to Cancel"). Each of the copies of the
Unsigned Notice of Right to Cancel stated

32a
that the loan closed on November 14, 2007.
See id. Specifically, each copy Barnes
allegedly received at closing stated as follows:
You have a legal right under federal law
to cancel this transaction, without cost,
within three (3) business days from
whichever of the following events occurs
last:
(1) The date of the transaction, which is
November 14. 2007; or
(2) The date you received your Truth-InLending disclosures; or
(3) The date you received this notice of
your right to cancel.
***
You may use any written statement
that is signed and dated by you and
states your intention to cancel, or you
may use this notice by dating and
signing below. . . .
If you cancel by mail or telegram, you
must send the notice no later than
midnight of November 17. 2007 (or

33a
midnight of the third business day
following the latest of the three events
listed above). If you send or deliver your
written notice to cancel some other way,
it must be delivered . . . no later than
that time.
Id. (underlining original). Other than the
specifically recited dates appearing in the
two underlined sections, the language of this
notice is in all material respects identical to
that of the model form notice of the right to
rescission provided by the Federal Reserve
Board. See 12 C.F.R. 226, Appx. H-8.
Also on November 15, 2007, Barnes signed
a notice of assignment, sale or transfer of
servicing rights in acknowledgment that he
had received notice that the tight to service
the 2007 Balloon Note loan had been
transferred from CBUSA to CHF. See
Zakharevych Decl., Exh. D ("November 2007
Servicing Rights Transfer Notice").
One day later, on November 16, 2007,
Kara conveyed to Barnes her interest in the
property via statutory special warranty deed,

34a
which deed was recorded November 20, 2007.
See Fendall Decl., Exh. H ("2007 Statutory
Special Warranty Deed").
Barnes married his current wife, Denise
Barnes (“Denise”), in September 2008. See
Affidavit (#205) of Denise Baines (“Denise
Aff.”), ¶ 3. Barnes and Denise currently
reside in the Independence, Oregon,
property, as their primary residence and
have done so since their marriage. See id.
In June 2010, Barnes requested copies of
all his loan documents from First American
Title. In response to Barnes’ request, First
American Title provided Barnes with copies
of the same Notice of Right to Cancel copies
of which were provided to Barnes at closing,
but bearing interlineations and initials
purporting to be Barnes' own, as well as a
signature purporting to be Barnes'. See
Zakharevych Decl., Exh. C (''Signed Notice of
Right to Cancel"). The copies of the notice of
right to cancel Barnes received from the title
company are interlineated as follows: next to
the printed date ''November 14, 2007" (the
purported date of the mortgage loan

35a
transaction) the date "11-15-07" and the
initials “TB” are handwritten; in addition, the
printed date "November 17, 2007” is lined
through, with the handwritten number “18”
appearing, likewise lined through, above the
printed number “17,” and with the
handwritten date "11-19-07" and the
handwritten initials “TB” appearing next to it.
Id. It is the Chase defendants' position that
two copies of the Signed Notice of Right to
Cancel were provided to Barnes, and signed
and interlineated by him, on November 15,
2007, in connection with the closing of the
loan. It is Barnes' position that he was not
provided with any copies of the Signed Notice
of Right to Cancel at any time prior to June
2010, and that he neither interlineated nor
signed the notice at any time.
On August 4, 2010, Barnes mailed copies
of a notice of his intent to rescind the loan
transaction of November 15, 2007, to CHF
and to CBUSA, at those entities' addresses of
record. See Plaintiffs Memorandum (#130) in
Support of Summary Judgment ("Plaintiffs
Summary Judgment Memorandum I”), Exh.

36a
A (“August 2010 Notice of Intent to Rescind").
It is undisputed that the copy of the notice
sent to CHF was received by CHF, and that
the copy of the notice sent to CBUSA was
returned to Barnes unreceived and unopened
by the addressee. Barnes never received any
response from either CHF or CBUSA
regarding his notice of intent to rescind.
Barnes thereafter made payments to CHF in
connection with the loan on August 11 and
September 13, 2010. See Zakharevych Decl.,
Exh. F ("CHF Mortgage Loan History"). At the
time Barnes sent the Chase defendants notice
of his intent to rescind the loan, the
outstanding principal balance of the loan was
$375,481.30. See Zakharevych Decl., Exh. G
(“August 2010 Mortgage Loan Statement").
In September 2010, Barnes received notice
from CHF that the right to service the 2007
Balloon Note loan would be transferred from
CHF to LBPS effective October l, 2010. See
Zakharevych Decl., Exh. E (“September 2010
Servicing Rights Transfer Notice"). Barnes
mailed notice of his intent to rescind the loan
to LBPS on October 23, 2010. See Plaintiff’s

37a
Summary Judgment Memorandum I, Exh. F
("October 2010 Notice of Intent to Rescind”).
On November 16, 2010, CBUSA assigned
the Deed of Trust to the MERS System, solely
as nominee for Fannie Mae. See Declaration
(#138) of Clay Brangham (“Brangham Decl.),
Exh. 3 ("2010 Corporate Assignment of Deed of
Trust"). On December 2, 2010, the November
16, 2007, assignment of the Deed of Trust from
CBUSA to the MERS System (solely as
nominee for Fannie Mae) was recorded. See id.
On January 21, 2011, LPBS wrote to
Barnes to advise him of LBPS' position that his
right to rescission had expired, and to invite
him to clarify his concerns with particularity.
See
Plaintiff’s
Summary
Judgment
Memorandum I, Exh. G ("January 2011 LBPS
Letter"). LBPS' letter also advised Barnes that
"[t]he owner of [his] loan [wa]s [at that time]
Federal National Mortgage Association
(Fannie Mae)," and that “LBPS [wa]s servicing
[his] loan on behalf of Fannie Mae.” Id.
Barnes filed this action on February 4,
2011.

38a
III. Disposition of Barnes' Appeal
As noted above, this court entered final
judgment dismissing this action on July 8,
2013. Baines filed notice of appeal from this
court’s judgment and from its orders
disposing of his claims on August 6, 2013.
The Ninth Circuit's mandate issued in
connection with Barnes' appeal on September
5, 2017.
The Ninth Circuit's Memorandum (#172)
setting forth the appeals court's grounds for
its unpublished disposition of Baines' appeal
provides problematic guidance as to which
specific claims, theories of relief, and legal
questions remain at issue in this action
following remand to this court. The
memorandum opinion consists of an
introductory paragraph followed by three
brief enumerated sections setting forth the
appeals
court's
legal
reasoning.
Notwithstanding that this court did not issue
summary judgment in connection with
Barnes' claim for rescission or claim for
statutory damages arising out of defendants'
failure to effect rescission, but rather

39a
dismissed both those claims before any
defendant moved for summary judgment in
this action, the introductory paragraph
setting forth the Ninth Circuit's disposition
of Barnes' appeal states that “[b]ecause
notice of rescission was properly given, we
vacate the grant of summary judgment on
Barnes’s claims for rescission and failure to
effect rescission and remand for further
proceedings." Memorandum (#172) at 2-3.
By and through the first enumerated set
of paragraphs setting forth the appeals
court's legal reasoning, the Ninth Circuit
determined that Barnes' notice of August 4,
2010, constituted "sufficient notice to CBUSA
that he was exercising his right to rescind."
Id. at 4. In support of that determination, the
appeals court noted that under specified
TILA provisions borrowers "may rescind a
loan within three years of the loan
transaction if the creditor fails to provide
specific disclosures required by TILA,” id. at
3, and that CBUSA's disclosures to Barnes
were not sufficient to satisfy those TILA
disclosure obligations due to the fact that

40a
"the address it did provide [to Barnes] was
not successfully receiving mail when Barnes
sent his notice there," id. at 4, but neither
determined nor suggested that, under TILA,
Barnes in fact had the right of rescission
that would give rise to CBUSA's affirmative
obligation to provide him with non-defective
disclosures in connection with such right. See
id. at 3-4.
By and through the second enumerated
set of paragraphs setting forth the appeals
court's legal reasoning, the Ninth Circuit
determined that failure to effect rescission
within 20 days after Barnes sent the notices
of August 4, 2010, was actionable under 15
U.S.C. § 1640(a), with the result that
"Barnes's claim for damages, a declaratory
judgment, and injunctive relief for failure to
effect rescission following timely notice of
intent to rescind'' had been improperly
dismissed by this court. Id. at 4-5. The court
did not find or suggest any grounds that
could support the conclusion that the remedy
of rescission itself, as opposed to damages for
failure to effect rescission, remained

41a
available to Barnes notwithstanding Ninth
Circuit case law establishing that the remedy
of rescission was time-barred. See id.
By and through the third enumerated
paragraph setting forth its legal reasoning,
the Ninth Circuit determined that, in light of
its foredescribed determinations, there
existed open questions of material fact
sufficient to preclude grant of summary
judgment as to the servicer liability of CHF
and LBPS for failure to provide contact
information of the owner of the mortgage
loan upon Barnes' request. See id. at 5.
In light of the foregoing, there is an
apparent ambiguity as to whether the Ninth
Circuit intended to vacate this court's
dismissal of Barnes' claim by and through
which he seeks to effect rescission of the
mortgage loan (as opposed to his claim for
damages arising out of defendants' failure to
effect rescission of the loan). Nothing in the
appeals court's reasoning suggests in any
degree that either this court's dismissal of
the claim for rescission or the Ninth Circuit's
disposition in McOmie-Gray v. Bank of Am.

42a
Home Loans, 667 F.3d 1325, 1326 (9th Cir.
2012) ("15 U.S.C. § 1635(f) is a three-year
statute of repose, requiring dismissal of a
claim for rescission brought more than three
years after the consummation of the loan
secured by the first trust deed, regardless of
when the borrower sends notice of
rescission"). see also Miguel v. Country
Funding Corp., 309 F.3d 1161, 1164 {9th
Cir.2002) (same); Beach v. Ocwen Fed. Bank,
523 U.S. 410, 412 (1998) (''[Section] 1635(£)
completely extinguishes the right of
rescission at the end of the 3-year period"),
was wrongly decided. In light of the Ninth
Circuit's express language effecting vacatur
of "the grant of summary judgment on
Barnes 1s claims for rescission and :failure to
effect rescission," it appears clear that all of
this court's dispositions of Barnes' claims
have been vacated, including disposition of
his claim for rescission, but in light of the
absence of any legal analysis suggesting that
dismissal of the rescission claim was
improvident I do not find that it is the law of
this case that the remedy of rescission
necessarily remains available to Barnes as a

43a
matter of law (even on the assumption that
he enjoyed a right to rescind the loan
transaction herein at any material time).
That remains an open question of law for this
court's consideration.
Moreover, although the Ninth Circuit
made the determination that Barnes' notices
of August 4, 2010, constituted adequate
notice of intent to rescind under TILA, it
neither expressly nor impliedly found that
Barnes had a light of rescission to exercise in
the first instance. As noted above, the Ninth
Circuit expressly found that under 15 U.S.C.
§ 1635(£) and 12 C.F.R. § 226.23(a)(3)
borrowers may rescind a loan transaction
"within three years" after it is consummated
in the event the lender fails to provide
required disclosures. See id. at 3. However,
Section 1635(f) and Section 226.23(a)(3) each
address only the time period within which
the right of rescission must be exercised, and
do not address the circumstances under
which the subject right of rescission arises.
See 15 U.S.C. § 1635(f). 12 C.F.R. §
226.23(a)(3). The Ninth Circuit's discussion

44a
and citations therefore do not suggest in any
way that the court considered or decided the
underlying question whether Barnes had a
right to rescind in the first instance, and I
therefore do not find that it is the law of this
case that at any material time Barnes
necessarily possessed a right to rescind the
loan transaction of November 15, 2007. See,
e.g., United States v. Cote, 51 F.3d 178, 181
(9th Cir. 1995) (the doctrine of the law of the
case is inapplicable to "issues an appellate
court did not address") (citations omitted).
The Ninth Circuit's analysis and disposition,
like those of this court, were premised on the
assumption that Barnes enjoyed such a right
of rescission, and it remains an open legal
question whether that assumption was
accurate under the applicable circumstances.
Finally,
although
the
introductory
paragraph summarizing the Ninth Circuit's
disposition of Barnes' appeal states only that
the court” vacate[d] the grant of summary
judgment on Barnes's claims for rescission
and failure to effect rescission and
remand[ed]
for
further
proceedings,"

45a
Memorandum (#172) at 2-3, the appeals
court held that Barnes' claims for declaratory
judgment and injunctive relief had been
improperly dismissed, see id. at 4-5, and that
summary judgment had been improvidently
entered as to the servicer liability of CHF
and LBPS for failure to provide contact
information of the owner of the mortgage
loan upon Barnes' request (although, as
discussed below, Barnes has not alleged a
claim for such servicer liability and this court
therefore did not enter summary judgment as
to any such claim), see id. at 5. It therefore
appears that the Ninth Circuit's vacatur of
this court's judgment included within its
scope all of this court's dispositions of Barnes'
claims.
ANALYSIS
I. Legal Framework Governing Barnes'
Claims
The Truth in Lending Act was enacted in
1968 as Title I of the federal Consumer
Credit Protection Act. TILA's stated purpose
is:

46a
to assure a meaningful disclosure of
credit terms so that the consumer will
be able to compare more readily the
various credit terms available to him
and avoid the uninformed use of credit,
and to protect the consumer against
inaccurate and unfair credit billing
and credit card practices.
15 U.S.C. § 160l(a) (2000).
TILA requires lenders in consumer credit
transactions to make clear disclosure of the
key terms of the proposed transactions. See
15 U.S.C. § 1601 et seq. TILA provides
remedies to consumers in the form of
statutory and actual damages including for
minor or “technical'' violations of TILA. See
Jackson v. Grant, 890 F.2d 118, 120 (9th Ch.
1989); see also 15 U.S.C. § 1640. A plaintiff
may recover statutory damages for violation
of TILA's disclosure requirements whether or
not the plaintiff suffered cognizable actual
damages. See So. Discount Co. of Ga. v.
Whitley (In re Whitley), 772 F.2d 815, 817
(11th Cir. 1985) (statutory damages must be
imposed regardless of whether actual

47a
damages resulted from the violation). If the
creditor is liable for damages, then the
plaintiff may also be awarded reasonable
attorney's fees and costs incurred in
connection with bringing an action under
TILA. See 15 U.S.C. § 1640 (a)(3). TILA
provides a one year statute of limitations for
such civil damages claims. See 15 U.S.C. §
1635(f).
15 U.S.C. § 1635 governs the TILA right
to rescind certain loan transactions after
they have been consummated. See 15 U.S.C.
§ 1635. Pursuant to 15 U.S.C. § 1635(e),
however, Section 1635, and the right of
rescission provided for in Section 1635(a)
thereof: is expressly inapplicable to “a
residential mortgage transaction” as defined
in section 1602 of Title 15. 15 § 1635(2). 15
U.S.C. § 1602 defines "residential mortgage
transaction" as “a transaction in which a
mortgage, deed of trust, purchase money
security
interest
arising
under
an
installment sales contract, or equivalent
consensual security interest is created or
retained against the consumer's dwelling to

48a
finance the acquisition or initial construction
of such dwelling." 15 U.S.C. § 1602(x).
As to consumer credit transactions in
which a security interest will be retained or·
acquired in the borrower's principal dwelling
in connection with which Section 1635 is by
its terms applicable, among the various
disclosures required of lenders in consumer
credit transactions, TILA (together with its
implementing
regulations,
referred
to
collectively as "Regulation Z”) requires
written disclosure of a consumer's right to
rescind any transaction secured by the
consumer's principal dwelling within three
days following either the consummation of
the transaction or delivery of rescission forms
and other material disclosures. See 15 U.S.C.
§ 1635(a); 12 C.F.R. 226.23(a)(3). Regarding
the required rescission notice, Regulation Z
specifically provides that:
a creditor shall deliver two copies of the
notice of the right to rescind to each
consumer entitled to rescind . . . .The
notice shall be on a separate document
that identifies the transaction and shall

49a
clearly and conspicuously disclose the
following:
(i.) The retention or acquisition of a
security
interest
in
the
consumer's principal dwelling.
(ii) The consumer's right to rescind
the transaction.
(iii) How to exercise the right to
rescind, with a form for that
purpose,
designating
the
address of the creditor's place of
business.
(iv.)The effects of rescission, as
described in paragraph (d) of
this section.
(v.) The date the rescission period
expires.
12
C.F.R.
226.23(b)(1).
A
written
acknowledgment by the consumer of receipt
of the notice of the right to rescind, if any is
obtained, "does no more than create a
rebuttable presumption of delivery thereof.”
15 U.S.C. § 1635(c).

50a
Ordinarily, “[t]he consumer may exercise
the right to rescind until midnight of the
third business day following consummation,
delivery of the [rescission] notice [], or
delivery
of
all
material
disclosures,
whichever
occurs
last."
12
C.F.R.
226.23(a)(3). However, “if the required notice
of the right to rescind is not delivered, the
light to rescind shall expire 3 years after
consummation, upon transfer of all of the
consumer's interest in the property, or upon
sale of the property, whichever occurs first."
Id. Timely provision of a materially defective
notice of the right to rescind is treated as
failure to provide the required notice. See,
e.g., Palmer v. Champion Mortg., 465 F.3d
24, 27 (1st Cir. 2006), citing Barnes v. Fleet
Nat’l Bank, 370 F.3d 164, 174 (1st Cir. 2004);
see also, e.g. Semar v. Platte Valley Fed. Sav.
& Loan Ass’n, 791 F.2d 699, 704 (9th Cir.
1986) (failure to fill in expiration date on
rescission form, although a purely technical
TILA violation, still entitles consumer to
rescind loan for up to three years), citing
Williamson v. Lafferty, 698 F.2d 767, 768-69
(5th Cir. 1983). Pursuant to Section 1635(f),

51a
subject to certain exceptions even the extended
right of rescission necessarily expires "three
years after the date of consummation of the
transaction or upon the sale of the property,
whichever occurs first. . . ." 15 U.S.C. § 1635(f).
It is the law of this case that if the printed
dates on a notice of the right to rescind are
inaccurate, such inaccuracy renders the
notice materially defective, regardless of
whether the inaccuracy does not prevent the
notice from putting the average consumer on
notice of the correct last date on which the
rescission right may be exercised. It is
further the law of this case that if a creditor
fails to receive a consumer's notice of intent
to rescind after such notice is mailed to the
address provided by and through notice of
the right to rescind, the notice was materially
defective when provided to the consumer.
Unlike TILA's one-year limitations period
for civil damages claims, as discussed above
the three-year time limit provided for under
Section 1635(f) for rescission of consumer
loan transactions is an absolute statute of
repose. See McOmie-Gray, 667 F.3d at 1326;

52a
Miguel, 309 F.3d at 1164; Beach, 523 U.S. at
412 ("[Section] 1635(f) completely extinguishes
the right of rescission at the end of the 3-year
period”).
Regarding the consumer's exercise of the
right of rescission, 12 C.F.R. § 226.23
provides as follows:
To exercise the right to rescind, the
consumer shall notify the creditor of the
rescission by mail, telegram or other
means of written communication.
Notice is considered given when
mailed, when filed for telegraphic
transmission or. If sent by other
means, when delivered to the creditor's
designated place of business.
12 C.F.R. 226.23(a)(2) (emphasis supplied).
"When a consumer rescinds a transaction,
the security interest giving rise to the right of
rescission becomes void and the consumer
shall not be liable for any amount, including
any finance charge.” 12 C.F.R. 226.23(d)(1). A
creditor is required to “return any money or
property that has been given to anyone in

53a
connection with the transaction [to be
rescinded] and [to] take any action necessary
to reflect the termination of the security
interest" "[w]ithin 20 calendar days after
receipt of a [consumer's] notice of rescission."
12 C.F.R. 226.23(d)(2).
Regarding the identity of the party to
whom intent to rescind must be mailed, Miguel
v. Country Funding Corp., 309 F.3d 1161 (9th
Cir. 2002), is instructive. In Miguel, the Ninth
Circuit was presented with a TILA claimant
who was entitled to a three-year period within
which to rescind her home mortgage loan. In
the last month preceding expiration of the
three-year period, the claimant attempted to
exercise her right of rescission, but sent her
notice of rescission to the wrong party
(specifically, to the loan servicing agent rather
than to the mortgage holder). On the last day
of the three-year period, the claimant filed suit
against the servicing agent, seeking rescission.
The court found that notice of intent to rescind
mailed to the servicing agent was inadequate
to effect the consumer's rescission right,
reasoning as follows:

54a
Miguel argues that she should have
been allotted an additional year in
which to file suit after the expiration of
the three-year period afforded by the
statute. While Miguel is correct that
15 U.S.C. § 1640(e) provides the
borrower one year from the refusal of
cancellation to file suit [for civil
damages], that is not the issue before
us. Rather, the issue is whether her
cancellation was effective even though
it was not received by the Bank - the
creditor - within the three-year statute
of repose. We hold that it was not.
While the Bank's servicing agent,
Countrywide, received notice of
cancellation within the relevant
three-year period, no authority
supports the proposition that
notice to Countrywide should
suffice for notice to the Bank, and
Miguel has presented no evidence
that the Bank received notice of
cancellation within the three-year
limitation period prescribed by
the statute. Therefore, her right

55a
to cancellation was extinguished
as against the Bank
Miguel, 309
supplied).

F.3d

at

1165

(emphasis

II. Barnes' Right to Rescind the 2007
Balloon Note Loan Under TILA
As noted above, the TILA right of
rescission is inapplicable to residential
mortgage transactions, or transactions in
which a borrower executes a mortgage loan
secured by the borrower 's residence in order
to finance the acquisition of that residence.
See 15 U.S.C. §§ 1635(e), 1602(x). In four
unpublished dispositions, the Ninth Circuit
has affirmed dismissal of claims premised on
TILA violations in connection with the TILA
right to rescission where the underlying loan
transaction was a residential mortgage
transaction and therefore was not subject to
Section 1635(a) rescission in the first
instance, see Oliva v. Nat'l City Mortg. Co.,
490 F. App'x 904, 905 (9th Cir. 2012)
(unpublished disposition), Hadley v. BNC
Mortg., Inc., 466 F. App'x 612, 612 (9th Cir.

56a
2012) (unpublished disposition), Smith v.
GMAC Mortg. Co., 444 F. App'x 977, 977 (9th
Cir.
2011)
(unpublished
disposition),
Sitanggang v. Countrywide Home Loans,
Inc., 419 F. App'x 756, 757 (9th Cir. 2011)
(unpublished disposition), and has once
observed in dicta, with specific reference to
the TILA right of rescission, that "TILA does
not apply to residential mortgages used to
finance the initial acquisition or construction
of a dwelling," Merrill v. Countrywide Fin.
Corp., 759 F.3d 1023, 1029 n.7 (9th Cir.
2014), citing 5 U.S.C. §§ 1635(e)(1) & 1602(x),
but does not appear otherwise to have
addressed the application of Section 1635(e)
in a published opinion. The Eighth Circuit,
however, has expressly affirmed that there is
no right of rescission under TILA in
connection with loans secured by the
borrower's dwelling where the loan is taken
in order to finance acquisition of the
dwelling, see Dunn v. Bank of Am. N.A., 844
F.3d 1002, 1005 (8th Cir. 2017), and on that
basis has affirmed dismissal of TILA claims
premised on the existence of a right to
rescission where the loan transaction

57a
documents indicated that acquisition of the
borrowers'
dwelling
was
effected
in
connection with the loan the borrowers
sought to rescind, see id. at 1006. The
District Courts of the Ninth Circuit have
routinely so applied Section 1635(e). See, e.g.,
Moore v. Ditech Fin., LLC, Case No. 2:16-cv1602-APG-GWF, 2017 U.S. Dist. LEXIS
87140, *5 (D. Nev. June 7, 2017); Jackson v.
Nationstar Mortg. LLC, Case No. 5:17-cv00044-CAS (KKx), 2017 U.S. Dist. LEXIS
73826 *8 (C.D. Cal. May 15, 2017); Rodriguez
v. Nationstar Mortg., LLC, case No. 2:16-cv02180-KJD-CWH, 2017 U.S. Dist. LEXIS
59718, *6 (D. Nev. Apr. 18, 2017).
In connection with the motions now before
the court, the parties have for the first time
in the long history of this action provided this
court with the evidence required to make the
determination that the 2007 Balloon Note
loan was a residential mortgage transaction
in connection with which TILA provides no
statutory right of rescission. Although the
evidence establishes that Barnes had a
partial interest in the property from 1990

58a
through 1997 (see 1990 Real Property Sale
Contract, 1993 Statutory Special Warranty
Deed, 1997 Quitclaim Deed), and was the
sole owner of the property from 1997 through
2003 (see 1997 Quitclaim Deed, 2003
Quitclaim Deed), the evidence further
establishes that Barnes’ interest in the
property was fully extinguished in 2003
when Barnes conveyed the entirety of his
interest in the property to Karen (see 2003
Quitclaim Deed, Barnes Depo., 35:20 -36:10).
The evidence likewise establishes that,
pursuant to his obligations under the 2007
Dissolution of Marriage, Barnes entered into
the 2007 Balloon Note loan transaction
specifically in order to acquire ownership
interest in the property (for the second time).
See 2007 Dissolution of Marriage, 2007
Balloon Note, 2007 Statutory Special
Warranty Deed. Again, immediately prior to
the 2007 Balloon Note loan transaction,
Barnes lacked any ownership interest in the
property, and by and through the 2007
Balloon Note loan transaction Barnes paid off
the encumbrances on the property and
tendered $100,000 to Kara in satisfaction of

59a
the
conditions
precedent
of
Kara's
conveyance to Barnes of her ownership
interest in the property under the 2007
Dissolution of Marriage. The 2007 Balloon
Note was secured by the property (see 2007
Balloon Note, 2007 Deed of Trust), and the
property was thereafter Barnes' place of
residence (see Denise Aff., ¶ 3). The necessary
implication is that the 2007 Balloon Note was
a residential mortgage transaction as to
which TILA provides no statutory right of
rescission. See 15 U.S.C. §§ 1635(e), 1602(x).
Nothing in the plain language of Sections
1635(e) or 1602(x) suggests in any way that
Barnes' prior (but extinguished) ownership
interest in the property requires modification
of the foregoing analysis. Under Section
1635(e), a borrower has no statutory right to
rescind an executed loan secured by the
borrower’s principal dwelling if the loan
proceeds are used to “finance the acquisition
or initial construction of such dwelling." 15
U.S.C. § 1602(x); see also 15 U.S.C. § 1635(e).
If Congress had intended to exclude from the
residential mortgage transaction exception to

60a
the right of rescission loan transactions in
which a party re-acquires a previous
ownership interest in a dwelling, it would
have modified both "acquisition” and
"construction" by the term "initial," rather
than only modifying “construction” by that
term. Under the plain language of the statute
as it was actually drafted, where a borrower
who lacks title in his dwelling at the time a
loan transaction is consummated uses the
proceeds of the loan to acquire title to the
dwelling, the loan is a residential mortgage
transaction as to which TILA provides for no
right of rescission. See 15 U.S.C. §§ 1635{e),
1602(x).
At least one court of this circuit has so
held. In Tanuvasa v. FDIC, Case No. CV 0902795 DDP (AGRx), 2010 U.S. Dist. LEXIS
148790 (C.D. Cal. Jan. 29, 2010), the District
Court for the Central District of California
was presented with facts analogous to those
before this court. The Tanuvasa plaintiff had
resided in her dwelling for eight years prior
to entering into the loan transaction she later
sought to rescind. See Tanuvasa, 2010 U.S.

61a
Dist. LEXIS 148790 at *7-8. For the first
seven of those eight years, the plaintiff had
an ownership interest in the dwelling, but
approximately one year before entering into
the loan transaction, the plaintiff had
arranged for a family friend to acquire title
in the dwelling in order to help the plaintiff
during a time of financial stress. See id. The
plaintiff entered into the loan transaction in
order to finance the reacquisition of title in
the dwelling from her family friend. See id.
The Tanuvasu court reasoned and held as
follows:
The recorded loan documents reveal
that Plaintiff acquired title to the
13236 Rutgers Avenue Property by way
of a Grant Deed from Kevin Lee
Wilson. . . . The Grant Deed was
recorded on December 11, 2006, the
same date that the Deed of Trust (in
connection with the Loan) was
recorded. . . . That Plaintiff may
have been a previous owner of the
13236 Rutgers Avenue Property is
of no consequence. In 2006, she

62a
obtained a loan from WaMu in order to
acquire title to the property from a
third party. As such, the transaction
was
a
“residential
mortgage
transaction" within the meaning of 15
U.S.C. § 1602([x]). TILA does not
provide a right to rescind in connection
with residential mortgage transactions
of this kind. See 15 U.S.C. § 1635(e)(l).
Accordingly, Plaintiffs TILA rescission
claim is dismissed with prejudice.
Tanuvasa, 2010 U.S. Dist. LEXIS 148790 at
*89 (emphasis supplied; citations to the court
record omitted).
Plaintiff seeks to rely on the Official Staff
Interpretation to Regulation Z for the
proposition that a loan transaction is not a
residential mortgage transaction "if the
consumer had previously purchased and
acquired some interest to the dwelling, even
though the consumer had not acquired full
legal title." 12 C.F.R. § 226 Supp. I at §
226.2(a)(24)(5)(i). However, both the plain
language of the interpretation and the
examples provided as illustrations of the

63a
interpretation ("the financing of a balloon
payment due under a land sale contract and
an extension of credit made to a joint owner
of property to buy out the other joint owner's
interest,” 12 C.F.R. § 226 Supp. I at §
226.2(a)(24)(5)(ii)),
establish
that
the
interpretation is applicable to situations in
which a borrower increases an existing
ownership interest using loan proceeds, and
not to situations in which a borrower
reacquires
a
previously
extinguished
ownership interest. See 12 C.F.R. § 226 Supp.
I at § 226.2(a)(24)(5)(i).(ii).
Plaintiff further argues that, pursuant to
the 2007 Dissolution of Marriage, he enjoyed
some cognizable degree of interest in the
property, even if not a legal ownership
interest, prior to entering into the 2007
Balloon Note loan. I disagree. Under the
plain language of the 2007 Dissolution of
Marriage, title to the property was not to be
conveyed to Barnes by Kara until after
Barnes had satisfied the encumbrances on
the property and tendered $100,000 to Kara
as a money judgment. See 2007 Dissolution of

64a
Marriage, ¶¶ 5.8, 5.11. Prior to such
satisfaction and tender, the 2007 Dissolution
of Marriage did not convey any degree of
ownership interest in the property to Barnes.
See id. The Official Staff Interpretation of
Regulation Z therefore provides no grounds
for disturbing the foregoing Section 1635(e)
analysis.
In the alternative, Barnes argues that the
2007 Balloon Note loan transaction was not a
residential mortgage transaction for TlLA
purposes because the loan documents refer to
the transaction as a refinancing and refer to
Barnes as the titleholder of the property.
Again, I disagree. Nothing in the plain
language of Sections 1635(e) or 1602(x)
suggests that a lender's characterization of a
loan transaction or of the parties thereto
could materially impact the question
whether, as a matter of statutory law, TILA
provides a right of rescission in connection
with the transaction. See 15 U.S.C. §§
1635(e),
1602(x).
Under
Barnes'
interpretation, lenders would have the
authority to abrogate borrowers' statutory

65a
rights by the simple expedient of changing
the language used to characterize loan
transactions, an outcome for which there is
no support in the text of the statute. I
therefore find that the characterization of the
loan transaction as a refinancing and the
reference to Barnes as titleholder of the
property are immaterial to the court's Section
1635(e) analysis.
In the further alternative, Barnes argues
that because the Chase defendants provided
Barnes with notice of his right to rescind the
2007 Balloon Note loan transaction in
connection with execution of the loan
agreement, they are in effect estopped from
denying that Barnes enjoyed a statutory
right of rescission. Once again, I disagree.
The
Official
Staff
Interpretation
of
Regulation Z expressly states that:
A creditor must determine in each case
if the transaction is primarily for an
exempt purpose. If some question
exists as to the primary purpose for a
credit extension, the creditor is, of
course, free to make the disclosures,

66a
and the fact that disclosures are made
under such circumstances is not
controlling on the question of whether
the transaction was exempt.
12 C.F.R. § 226 Supp. I at § 226.3(1)(3(a))(l).
Itis clear that the Chase defendants'
provision to Baines of notice of his right to
rescind did not create a statutory right of
rescission not provided for by the statute
itself. Moreover, this court need not
determine whether provision of notice of the
tight to rescind created a contractual; as
opposed to statutory, rescission right,
because on the arguendo assumption that
provision of the notice created such a
contractual right, the right would necessarily
have been limited to the three-day period
described in the notice Barnes received, and
would not have been extensible to three years
under TILA for failure to provide adequate
disclosures required by statute, since the
TILA disclosure and rescission rules are
without bearing on borrowers’ contractual
rights. The Chase defendants’ provision to
Barnes of statutorily superfluous notice of

67a
right to rescind therefore could not have
created the three-year right of rescission
requisite to the viability of Barnes'
rescission-related claims.
For all of the foregoing reasons, I find that
the 2007 Balloon Note loan transaction was a
residential mortgage transaction as to which
Barnes enjoyed no statuto1y right of
rescission and no statutory right of disclosure
of any such right of rescission, and that in
consequence Barnes' various notices of his
intent to rescind that transaction were
without material effect on any party's rights
or obligations in connection with the 2007
Balloon Note loan.2
III. Disposition of Barnes' Claims
It follows directly from the foregoing
analysis and findings that Barnes' actual or
constructive claims for rescission of the 2007
In light of the foregoing findings, the court need
not address defendants' alternative argument that
Barnes is not entitled to seek rescission of the 2007
Balloon Note loan transaction because he is unable to
tender back the proceeds of the loan.
2

68a
Balloon Note loan, for statutory and actual
damages in connection with defendants'
failure to provide adequate notice of his right
to rescind in connection with execution of the
2007 Balloon Note, and for statutory and
actual damages in connection with the Chase
defendants' failure to effect rescission of the
2007 Balloon Note loan following Baines'
notice of intent to rescind are without merit,
and that defendants are entitled to summary
judgment as to those claims.
In addition it is clear from the allegations
and prayer for relief of Baines' second
amended complaint that Barnes' claim for
declaratory relief and constructive claim for
injunctive relief are necessarily dependent on
the validity of Barnes' position that he is
entitled to rescission of the 2007 Balloon
Note loan. As to his claim for declaratory
judgment, Barnes specifically prays for this
court's declaration that Barnes' notice of
intent to rescind "[wa]s valid, and a
termination of any security interest in
Plaintiffs Property created under the [2007
Balloon Note] Transaction." Because for the

69a
reasons set forth above, Barnes' notice of
intent to rescind was without legal effect,
Barnes is not entitled to the requested
declaration as a matter of law, and
defendants are therefore entitled to summary
judgment as to Barnes' claim for declaratory
relief.
As to Barnes' constructive claim for
injunctive relief, Barnes' sole alleged and
asserted ground for entitlement to the
requested injunction to “[e]njoin Defendants
during the pendency of this action, and
permanently thereafter, from instituting,
prosecuting, or maintaining a non-judicial
foreclosure proceeding on Plaintiffs Property,
from recording any deeds or mortgages
regarding the Property or from otherwise
taking any steps to deprive Plaintiff of
ownership of the Property" is that
defendants' security interest in the property
was extinguished by operation of Barnes'
notice of intent to rescind. Because for the
reasons set forth above, Barnes' notice of
intent to rescind was without legal effect,
Barnes is not entitled to the requested

70a
injunctive relief, and defendants are
therefore entitled to summary judgment as to
his constructive claim for such relief.
Finally, as noted above, the Ninth Circuit
opined that summary judgment had been
improvidently entered as to the servicer
liability of CHF and LBPS for failure to
provide contact information of the owner of
the mortgage loan upon Barnes’ request. See
Memorandum (#172) at S. However, Baines
does not allege a claim for such liability, and
makes no allegations and requests no relief
that could support construction of such a
claim. See Second Amended Complaint,
passim. In the absence of any suggestion in
the record that Barnes intended to allege
such a claim, I decline to find that such a
claim is at issue in this action following
remand from the Ninth Circuit.
Because defendants are entitled to
summary judgment as to all of Barnes'
claims at issue in this action, Barnes' motion
(#175) for summary judgment should be
denied, and the Chase defendants’ motion
(#193) and Fannie Mae's and LBPS1 motion

71a
(#199) for summary judgment should both be
granted.
CONCLUSION
For the reasons set forth above, Barnes'
motion (#175) for summary judgment should
be denied, and the Chase defendants' motion
(#193) and Fannie Mae's and LBPS' motion
(#199) for summary judgment should both be
granted. A final judgment should be
prepared.
SCHEDULING ORDER
The Findings and Recommendation will
be referred to a district judge. Objections, if
any, are due fourteen (14) days from service
of the Findings and Recommendation. If no
objections are filed, then the Findings and
Recommendation will go under advisement
on that date.
If objections are filed, then a response is
due fourteen (14) days after being served
with a copy of the objections. When the
response is due or filed, whichever date is
earlier, the Findings and Recommendation
will go under advisement.

72a
NOTICE
A party's failure to timely file objections
to any of these findings will be considered a
waiver of that party's right to de novo
consideration of the factual issues addressed
herein and will constitute a waiver of the
party's right to review of the findings of fact
in any order or judgment entered by a
district
judge.
These
Findings
and
Recommendation are not immediately
appealable to the Ninth Circuit Court of
Appeals. Any notice of appeal pursuant to
Rule 4(a)(l) of the Federal Rules of Appellate
Procedure should not be filed until entry of
judgment.
Dated this 12th day of April, 2018

73a
[FILED AUGUST 10, 2017]
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 13-35716
D.C. No. 3:11-cv-00142-PK
MEMORANDUM*
TIMOTHY BARNES,

Plaintiff-Appellant,
v.

CHASE HOME FINANCE, LLC, a Delaware
corporation; CHASE BANK USA, N.A., a subsidiary
of JP Morgan Chase & Co., a Delaware corporation;
IBM LENDER BUSINESS PROCESS SERVICES,
INC.,
a
Delaware
corporation;
FEDERAL
NATIONAL MORTGAGE ASSOCIATION,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Oregon
Anna J. Brown, District Judge, Presiding
Argued and Submitted May 10, 2017
Portland, Oregon

This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
*

74a
Before: BYBEE and HURWITZ, Circuit Judges, and
RAKOFF,** District Judge.
Timothy Barnes mailed a notice that he was
exercising his right to rescind his mortgage to his
creditor, Chase Bank USA, N.A. (CBUSA), and the
loan servicers to which he had been making monthly
payments, Chase Home Finance, LLC (CHF) and
later IBM Lender Business Process Services,
Inc.(LBPS). For reasons that are unclear from the
record, the letter to the creditor was returned to
Barnes undelivered. The loan was not rescinded, and
Barnes brought suit for rescission and violation of the
Truth in Lending Act (TILA), 15 U.S.C. § 1601 et seq.,
and its requirements regarding rescission procedures
against CBUSA, CHF, and LBPS.1 The district court
granted the defendants' motion for summary
judgment. Because notice of rescission was properly
given, we vacate the grant of summary judgment on
Barnes' s claims for rescission and failure to effect
rescission and remand for further proceedings. 2

** The Honorable Jed S. Rakoff, Senior United States District
Judge for the Southern District of New York, sitting by
designation.

The Federal National Mortgage Association (Fannie Mae)
was later added as a defendant in an amended complaint.
1

2

Fannie Mae became a creditor after the three-year
statute of repose date passed. Any claim against CBUSA
can be brought against Fannie Mae as an assignee of
CBUSA's interest, and should not have been be dismissed.
See 15 U.S.C. § 1641(c) ("Any consumer who has the right
to rescind a transaction under section 1635 of this title may
rescind the transaction as against any assignee of the
obligation.").

75a
1. A borrower may rescind a loan within three
years of the loan transaction if the creditor fails to
provide specific disclosures required by TILA. See 15
U.S.C. § 1635(f); 12 C.F.R. § 226.23(a)(3).
To
exercise that right, a borrower must ''notify[] the
creditor, in accordance with regulations of the
Bureau, of his intention to do so." 15 U.S.C. §
1635(a); see also Jesinoski v. Countrywide Home
Loans, Inc., 135 S. Ct. 790, 792 (2015) ("[R]escission
is effected when the borrower notifies the creditor of
his intention to rescind."). TILA's core implementing
regulation, known as Regulation Z, outlines further
details on how the borrower is to exercise the right
to rescind. See 12 C.F.R. § 226(a). Specifically,
Consumer Financial Protection Bureau (CFPB)
Official Staff Commentary to Regulation Z provides:
"Where the creditor fails to provide the consumer
with a designated address for sending the
notification of rescission, delivery of the notification
to the person or address to which the consumer has
been directed to send payments constitutes delivery
to the creditor or assignee." 12 C.F.R. § 226, Supp. I,
para. 23(a)(2); Truth in Lending, 69 Fed. Reg.
16,769-03, 16,771 (Mar. 31, 2004).
Barnes attempted to notify both the creditor,
CBUSA, and the servicer, CHF, of his intent to
rescind by mailing letters to the addresses they had
provided him. CBUSA "fail[ed] to provide [Barnes]
with a designated address for sending the
notification of rescission" because the address it did
provide was not successfully receiving mail when
Barnes sent his notice there. See 12 C.F.R. § 226,
Supp. I, paras. 15(a)(2), 23(a)(2).
The only
remaining action for Barnes to take, per Regulation
Z and the CFPB Official Staff Commentary, was to

76a
notify the servicer, which he had already done.
Barnes's letter to CHF therefore provided sufficient
notice to CBUSA that he was exercising his right to
rescind.
2. There remain disputed issues of fact
warranting reversal of summary judgment for the
claims against the defendants for failure to effect
rescission in accordance with TILA's requirements.
Because the rescission notice was timely provided,
failure to comply with the requirements in 15 U.S.C.
§ 1635(b) within 20 days is actionable under 15
U.S.C. § 1640(a). Barnes's claim for damages, a
declaratory judgment, and injunctive relief for
failure to effect rescission following timely notice of
intent to rescind against CBUSA and Fannie Mae
were thus improperly dismissed on summary
judgment by the district court.
Barnes also argues that CHR and LBPS are
liable for failure to rescind based on the theory that
they are assignees. Due to the lack of clarity in the
record on the relationship between the lenders and
the servicers, Barnes has established a genuine
dispute as to material fact on this question sufficient
to survive summary judgment.
3. Barnes argues that the servicers, CHF and
LBPS, are liable under 15 U.S.C. § 1640(a) for
failure to provide requested information about the
creditor under § 1641(t)(2) ("Upon written request by
the obligor, the servicer shall provide the obligor, to
the best knowledge of the servicer, with the name,
address, and telephone number of the owner of the
obligation or the master servicer of the obligation.").
Barnes requested information about the name,
address, and telephone number of the creditor from

77a
CHF and LBPA, and the record is not clear whether
he actually received it. Because Barnes has raised a
genuine issue of material fact regarding compliance
with TILA, the district court erred in granting
summary judgment on this issue.
VACATED AND REMANDED.

78a
[FILED OCTOBER 28, 2019]
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No.

18-35616

D.C. No. 3:11-cv-00142-PK
District of Oregon, Portland
ORDER
TIMOTHY BARNES,

Plaintiff-Appellant,

v.
CHASE HOME FINANCE, LLC, a Delaware
corporation; CHASE BANK USA, N.A., a subsidiary of
JP Morgan Chase & Co., a Delaware corporation; IBM
LENDER BUSINESS PROCESS SERVICES, INC., a
Delaware corporation; FEDERAL NATIONAL
MORTGAGE ASSOCIATION,
Defendants-Appellees.
Before: WATFORD and MILLER, Circuit Judges,
and ROTHSTEIN,* District Judge.
The panel unanimously votes to deny the petition
for panel rehearing. Judges Watford and Miller vote
to deny the petition for rehearing en banc, and Judge
Rothstein so recommends. The full court has been
advised of the petition for rehearing en banc, and no
judge requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35. The petition for
panel rehearing and rehearing en banc, filed October
2, 2019, is DENIED.
The Honorable Barbara Jacobs Rothstein, United States
District Judge for the Western District of Washington, sitting
by designation.
*

79a
Relevant Portions of Federal Statutory
Provisions Involved, The Federal Truth in
Lending Act, 15 U.S.C. § 1601, et seq.
15 U.S.C. § 1601(a) provides:
Congressional findings and declaration of
purpose
(a) Informed use of credit
The Congress finds that economic stabilization would
be enhanced and the competition among the various
financial institutions and other firms engaged in the
extension of consumer credit would be strengthened
by the informed use of credit. The informed use of
credit results from an awareness of the cost thereof by
consumers. It is the purpose of this subchapter to
assure a meaningful disclosure of credit terms so that
the consumer will be able to compare more readily the
various credit terms available to him and avoid the
uninformed use of credit, and to protect the consumer
against inaccurate and unfair credit billing and credit
card practices.
15 U.S.C. § 1602 provides, in pertinent part:
Definitions and rules of construction
...
(x) The term “residential mortgage transaction”
means a transaction in which a mortgage, deed of
trust, purchase money security interest arising under
an installment sales contract, or equivalent
consensual security interest is created or retained
against the consumer's dwelling to finance the
acquisition or initial construction of such dwelling.

80a
15 U.S.C. § 1635 provides, in pertinent part:
Right of rescission as to certain transactions
(a) Disclosure of obligor's right to rescind
Except as otherwise provided in this section, in the case
of any consumer credit transaction (including opening or
increasing the credit limit for an open end credit plan)
in which a security interest, including any such interest
arising by operation of law, is or will be retained or
acquired in any property which is used as the principal
dwelling of the person to whom credit is extended, the
obligor shall have the right to rescind the transaction
until midnight of the third business day following the
consummation of the transaction or the delivery of the
information and rescission forms required under this
section together with a statement containing the
material disclosures required under this subchapter,
whichever is later, by notifying the creditor, in
accordance with regulations of the Bureau, of his
intention to do so. The creditor shall clearly and
conspicuously disclose, in accordance with regulations of
the Bureau, to any obligor in a transaction subject to this
section the rights of the obligor under this section. The
creditor shall also provide, in accordance with
regulations of the Bureau, appropriate forms for the
obligor to exercise his right to rescind any transaction
subject to this section.
…
(e)(1) Exempted transactions; reapplication of
provisions
This section does not apply to--

81a
(1) a residential mortgage transaction as defined
in section 1602(w)1 of this title
...
(f) Time limit for exercise of right
An obligor's right of rescission shall expire three years
after the date of consummation of the transaction or
upon the sale of the property, whichever occurs first,
notwithstanding the fact that the information and
forms required under this section or any other
disclosures required under this part have not been
delivered to the obligor, except that if (1) any agency
empowered to enforce the provisions of this
subchapter institutes a proceeding to enforce the
provisions of this section within three years after the
date of consummation of the transaction, (2) such
agency finds a violation of this section, and (3) the
obligor's right to rescind is based in whole or in part
on any matter involved in such proceeding, then the
obligor's right of rescission shall expire three years
after the date of consummation of the transaction or
upon the earlier sale of the property, or upon the
expiration of one year following the conclusion of the
proceeding, or any judicial review or period for
judicial review thereof, whichever is later.
Relevant Portions of Federal Regulations
Involved:
“Regulation Z,” 12 C.F.R. § 1026, et seq.
§ 1026.2 Definitions and rules of construction.
(a) Definitions. For purposes of this part, the
following definitions apply:

1

Redesignated section 1602(x) of this title.

82a
(11) Consumer means a cardholder or natural
person to whom consumer credit is offered or
extended. However, for purposes of rescission
under §§1026.15 and 1026.23, the term also
includes a natural person in whose principal
dwelling a security interest is or will be retained
or acquired, if that person's ownership interest in
the dwelling is or will be subject to the security
interest. For purposes of §§1026.20(c) through (e),
1026.36(c), 1026.39, and 1026.41, the term
includes a confirmed successor in interest.
(24) Residential mortgage transaction means a
transaction in which a mortgage, deed of trust,
purchase money security interest arising under
an installment sales contract, or equivalent
consensual security interest is created or
retained in the consumer's principal dwelling to
finance the acquisition or initial construction of
that dwelling.
(b) Rules of construction. For purposes of this
part, the following rules of construction apply:
(3) Unless defined in this part, the words used
have the meanings given to them by state law or
contract.
§ 1026.23(a)(1) Right of rescission.
(a) Consumer's right to rescind. (1) In a credit
transaction in which a security interest is or will be
retained or acquired in a consumer's principal
dwelling, each consumer whose ownership interest is
or will be subject to the security interest shall have
the right to rescind the transaction, except for
transactions described in paragraph (f) of this section.
For purposes of this section, the addition to an

83a
existing obligation of a security interest in a
consumer's principal dwelling is a transaction. The
right of rescission applies only to the addition of the
security interest and not the existing obligation. The
creditor shall deliver the notice required by
paragraph (b) of this section but need not deliver new
material disclosures. Delivery of the required notice
shall begin the rescission period.
...
(b)(1) Notice of right to rescind. In a
transaction subject to rescission, a creditor shall
deliver two copies of the notice of the right to rescind
to each consumer entitled to rescind (one copy to each
if the notice is delivered in electronic form in
accordance with the consumer consent and other
applicable provisions of the E-Sign Act). The notice
shall be on a separate document that identifies the
transaction and shall clearly and conspicuously
disclose the following:
(i) The retention or acquisition of a security
interest in the consumer's principal dwelling.
(ii) The
transaction.

consumer's

right

to

rescind

the

(iii) How to exercise the right to rescind, with a
form for that purpose, designating the address of the
creditor's place of business.
(iv) The effects of rescission, as described in
paragraph (d) of this section.
(v) The date the rescission period expires.

84a
Relevant Portions of the Consumer Financial
Protection
Bureau’s Official Interpretations to
Regulation Z
12 C.F.R. § 1026, Supplement I
12 C.F.R. § 1026 Supp. I, 1026.2(a)(24)-5.i and ii
5. Acquisition.
i. A residential mortgage transaction finances the
acquisition of a consumer's principal dwelling. The
term does not include a transaction involving a
consumer's principal dwelling if the consumer had
previously purchased and acquired some interest to
the dwelling, even though the consumer had not
acquired full legal title.
ii. Examples of new transactions involving a
previously acquired dwelling include the financing of
a balloon payment due under a land sale contract and
an extension of credit made to a joint owner of
property to buy out the other joint owner's interest. In
these instances, disclosures are not required under
§ 1026.18(q) (assumability policies). However, the
rescission rules of §§ 1026.15 and 1026.23 do apply to
these new transactions.
Relevant Portions of Oregon’s Property
Partition Statute,
Or. Rev. Stat. § 107.105
107.105. Contents of decree; care and custody of
children; spousal support; disposition of property;
creation of trust; name change; judgment for money;
tax implications; appeal; supplemental proceedings
for partition of property

85a
(f) For the division or other disposition between the
parties of the real or personal property, or both, of
either or both of the parties as may be just and proper
in all the circumstances. In determining the division
of property under this paragraph, the following apply:
…
(E) Subsequent to the filing of a petition for
annulment or dissolution of marriage or separation,
the rights of the parties in the marital assets shall be
considered a species of co-ownership, and a transfer
of marital assets under a judgment of annulment or
dissolution of marriage or of separation entered on or
after October 4, 1977, shall be considered a
partitioning of jointly owned property.

